20935 Swenson Drive, Suite 310
Waukesha, WI 53186
Ph 262-777-2200
Fax 262-777-2201
www.otjen.com

Writer's Direct Dial # (262) 777-2222
Writer’s e-mail address jfranckowiak@otjen.com

April 3, 2020

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
RE:

Via E-filing and USPS

Knight v Grossman, No. 19-1138

Dear Mr. Harris:
I write to request an extension of time for respondent Thomas Grossman, Jr., MD to
respond to the petition for certiorari filed in this case. Dr. Grossman’s brief in opposition
to certiorari is presently due on April 17, 2020. I request a 60 day extension of time
through and including Wednesday, June 17, 2020 to file this response.
The reason for this request is two-fold. I am currently working on an appellate brief due
to the Wisconsin Court of Appeals on April 27, 2020 in Barsuli v. Virtual Radiologic
Corp. et. al., Appeal No. 2020AP0289.
Secondly, pursuant to the Court’s March 19, 2020 order regarding COVID-19, I am
requesting an extension of time on those grounds. With Wisconsin stay-at-home
restrictions in place, my staff is working remotely which is resulting in longer than usual
time delays in the preparation of briefs and other written submissions. Deliveries to our
office are impacted and coordination with outside vendors assisting our firm has been
limited.
I will endeavor to submit my response prior to June 17; however, in this time of
uncertainty, I feel that a 60 day request is best considered under the circumstances.
A hard copy of this letter request is also being placed in the US mail to you and opposing
counsel as of today’s date. Thank you for your kind consideration of my request.

April 3, 2020
-2-

OTJEN LAW FIRM, S.C.

Jason J. Franckowiak
JJF/bms

April 3, 2020
-3-

CERTIFICATE OF SERVICE
I, Jenny Tycz, hereby certify that I served the following document on the individuals
listed below by first-class mail and email on April 3, 2020:
RESPONDENT’S REQUEST FOR AN EXTENSION OF TIME TO FILE
RESPONSE TO PETITION FOR CERTIORARI
Parties served:
Emily J. Greb
Michael Laing
Perkins Coie LLP
33 East Main Street, Suite 201
Madison, WI 53703
Email: EGreb@perkinscoie.com
MLaing@perkinscoie.com
Executed April 3, 2020 at Waukesha, Wisconsin.

s/Jenny Tycz
Otjen Law Firm

